           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



          IMPROPERLY PAID
         LUMP-SUM DEATH
            PAYMENTS


    August 2006    A-08-05-25145




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   August 18, 2006                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Improperly Paid Lump-Sum Death Payments (A-08-05-25145)



        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA)
        improperly paid Lump-Sum Death Payments (LSDP) when a recoverable overpayment
        existed on a deceased numberholder’s record.

        BACKGROUND

        SSA may pay a lump-sum death benefit of $255 upon the death of a person who has
        enough quarters of coverage to be insured under the Social Security program. 1 This
        payment is limited to a surviving spouse who was living with the worker at the time of
        death or a minor child who, in the month of the wage earner’s death, is eligible for
        certain Social Security benefits based on the worker’s record. SSA policy requires that
        an LSDP be withheld when there is a recoverable overpayment on the deceased
        numberholder’s record. 2 When SSA does not recognize an overpayment exists, it may
        improperly pay the LSDP rather than reduce/recover the overpayment.

        To accomplish our objective, we interviewed some field office, program service center
        and Headquarters personnel responsible for LSDP issues. Additionally, we reviewed
        SSA’s policies and procedures for processing LSDPs. To determine the dollar value of
        improperly paid LSDPs, we obtained a data extract from SSA’s Master Beneficiary




        1
            Program Operations Manual System (POMS), section SM 00805.035.
        2
            POMS, section GN 02205.003.
Page 2 - The Commissioner


Record 3 and the Recovery of Overpayments, Accounting and Reporting System 4 of
3,464 numberholders who died in Calendar Year (CY) 2004, had an LSDP annotated on
their record, and had an overpayment at the time of death. 5

We reviewed a random sample of 250 records from our extract of 3,464 to determine
(1) whether SSA paid the LSDP, (2) whether SSA withheld the LSDP to reduce an
existing overpayment and (3) what system SSA used to process the case. SSA
generally pays LSDPs using the Modernized Claims System (MCS). 6 However, if an
overpayment exists on the deceased numberholder’s record, program service center
personnel process the LSDP through the Manual Adjustment, Credit and Award
Processing (MADCAP) System. 7 If SSA personnel directly input death information into
the Postentitlement Online System, 8 the Title II Processing System pays the LSDP. 9

RESULTS OF REVIEW
Despite policies to the contrary, SSA frequently paid LSDPs when a recoverable
overpayment existed on a deceased numberholder’s record. Based on the sample of
250 cases reviewed where an overpayment existed on the record, we estimate SSA
incorrectly processed approximately 2,536 (73 percent), resulting in about $570,597 the
Agency should have withheld to reduce existing overpayments. Although we did not
attempt to quantify the amount of LSDPs the Agency incorrectly paid before CY 2004,
program service center personnel acknowledged that these processes had been in
place for many years. As such, we believe SSA lost the opportunity to reduce/recover
millions of dollars in overpayments.

Although SSA has the opportunity to reduce existing overpayments by withholding
LSDPs, it has not routinely done so. MCS does not withhold LSDPs when a
recoverable overpayment exists on the deceased numberholder’s record. In addition,

3
 The Master Beneficiary Record is a file of every Retirement Survivors Disability Insurance beneficiary.
SSA establishes the record on an account basis when the Agency receives an initial claims action.
4
 The Recovery of Overpayments, Accounting and Reporting System controls the recovery and collection
activity of legally defined overpayments. We did not consider incorrect benefits paid after the
beneficiary’s death in our review.
5
    See Appendix B for more information on our methodology.
6
    MCS is an application program that processes initial award actions.
7
 MADCAP, also referred to as the Manual system, is the vehicle for Master Beneficiary Record updates
when full automated processing by the Title II processing applications cannot be accomplished.
MADCAP actions are processed in program service centers.
8
    The Postentitlement Online System is a vehicle for direct input of Title II post-entitlement actions.
9
 Title II Processing System, also known as the Title II Redesign, automatically adjusts benefits for
survivors and pays an LSDP to a spouse living in the same household as the wage earner when SSA
receives notification of death.
Page 3 - The Commissioner


SSA personnel who manually process cases through MADCAP do not always apply
LSDPs to existing overpayments, as required. Furthermore, SSA’s automated Title II
Processing System does not routinely process LSDPs correctly when a recoverable
overpayment exists on the record.

SSA IMPROPERLY PAID LUMP-SUM DEATH PAYMENTS

SSA improperly paid thousands of dollars in LSDPs when a recoverable overpayment
existed on a deceased numberholder’s record. Based on our analysis of the sample of
250 CY 2004 LSDPs, we estimate that SSA incorrectly processed about
2,536 (73 percent). As a result, SSA paid approximately $570,597 it should have
withheld to reduce existing overpayments.

SSA processed 128 (51 percent) of the sample of 250 LSDP cases we reviewed
through MCS, as shown in Figure 1. SSA processed 84 (34 percent) of the cases
through MADCAP and the remaining 38 (15 percent) through SSA’s Title II Processing
System.




              FIGURE 1: SSA PROCESSED MOST OF THE LUMP-SUM
                       DEATH PAYMENTS THROUGH MCS

                             MADCAP
                              34%




                        Title II                              MCS
                     Processing                               51%
                        15%
Page 4 - The Commissioner


As illustrated in Figure 2, our sample results showed that SSA improperly paid
100 percent of the LSDPs processed through MCS when a recoverable overpayment
was on the record. Additionally, SSA improperly paid 60 percent of the LSDPs it
processed through MADCAP and 46 percent of cases it processed through the Title II
Processing System when an overpayment existed on the deceased wage earner’s
record. These errors resulted in $27,986 processed through MCS, $9,724 processed
through MADCAP and $3,470 processed through the Title II Processing System that
should have been withheld to reduce existing overpayments.

           FIGURE 2: PERCENTAGE OF LUMP-SUM DEATH PAYMENTS SSA
                             IMPROPERLY PAID

                                                                               Properly Paid
                                                                               Improperly Paid
                                                         100%
                                        100%
                      Improperly Paid




                                        80%                          60%
                        Percentage




                                        60%                                      46%

                                        40%

                                        20%

                                         0%
                                               MCS     MADCAP       TITLE II
                                               Type of Processing System



Should the situation remain unchanged, we estimate that, over the next year, SSA will
incorrectly process about 2,500 additional LSDP cases, resulting in approximately
$570,000 the Agency will not withhold to reduce existing overpayments.

Modernized Claims System is Not Programmed to Recognize Overpayments

Based on our analysis, we determined that MCS does not recognize overpayments on
deceased numberholders’ records before processing LSDPs. Rather, SSA relies on
field office personnel to identify existing overpayments and send LSDP claims to
program service centers for manual processing. 10 Personnel at the two field offices we
visited told us they were unaware that LSDPs should not be processed through MCS
when a recoverable overpayment exists. It appears that SSA policy could be more
specific regarding the processing of such actions through MCS. Although SSA policies
state that LSDPs are not payable when an overpayment is on the record, 11 it is not
among the list of exclusions that are found in MCS procedures (that is, that they should

10
     POMS, section GN 01010.040 A. & C.2.
11
     POMS, section GN 02205.003 B & GN 02301.065 A.
Page 5 - The Commissioner


not be processed through MCS). 12 Office of Systems personnel stated they did not
know that MCS would pay the LSDP when an overpayment exists on the deceased
numberholder’s record. However, as previously indicated, SSA improperly paid
100 percent of the LSDPs we reviewed that personnel processed through MCS, rather
than reducing existing recoverable overpayments. Office of Systems personnel
acknowledged that corrections to MCS could prevent the Agency from improperly
paying LSDPs when a recoverable overpayment exists on a deceased numberholder’s
record.

Program Service Center Personnel Frequently Did Not Apply Lump-Sum Death
Payments to Existing Overpayments

Program service center personnel who manually processed cases through MADCAP
frequently did not apply LSDPs to existing overpayments, as required by POMS. 13 Our
analysis showed that program service center personnel improperly processed LSDPs in
the following ways.

•     Personnel did not consider the existing overpayment on the deceased
      numberholder’s record when processing the LSDP claim.

•     Personnel attempted to apply LSDPs to existing overpayments by using special
      accrual entry codes (AB and AA). 14 Our analysis showed, and program service
      center personnel agreed, that MADCAP did not process these LSDP cases
      correctly. In these instances, MADCAP withheld the LSDPs, but did not reduce the
      overpayment on the deceased numberholder’s record. Personnel stated they
      believed this occurred because of a problem with MADCAP.

•     Personnel withheld LSDPs, but did not reduce the overpayment by the LSDP
      amount. Personnel stated they believed these instances occurred because benefit
      authorizers failed to complete the overpayment recovery action.

Program service center personnel acknowledged that staff should be reminded of their
responsibility to apply LSDPs to reduce an existing overpayment on a deceased
numberholder’s record.




12
     Modernized Systems Operations Manual, MCS 004.002.
13
     POMS, section GN 02205.003 B & GN 02301.065 B.
14
  POMS, section SM 00848.310 instructs personnel to use a special entry code (AB) to reduce/recover
overpayments that are already recorded on the MBR.
Page 6 - The Commissioner


Title II Processing System Did Not Routinely Process Lump-Sum Death Payments
Correctly

Based on our analysis of LSDPs reviewed, we determined the Title II Processing
System did not consistently recognize existing overpayments on a deceased
numberholder’s record. Because there is no automated control, the Agency depends
on staff to identify existing overpayments and send the case for manual processing. As
a result, when personnel input death information into the Postentitlement Online System
and an overpayment existed on the deceased numberholder’s record, the Agency paid
the LSDP rather than reduce the existing overpayment.

As previously discussed, SSA improperly paid 46 percent of the LSDP cases we
reviewed that were processed through the Title II Processing System. In certain
circumstances, the Title II Processing System applied LSDPs to reduce existing
overpayments. For example, we identified instances in which the Title II Processing
system correctly applied LSDPs to existing overpayments when SSA was already
withholding a portion of a beneficiary’s regular monthly benefit to collect an existing
overpayment on the numberholder’s record. Program service center personnel with
whom we spoke acknowledged the Title II Processing system could be corrected to
prevent the Agency from paying LSDPs when a recoverable overpayment exists on a
deceased numberholder’s record.

CONCLUSION AND RECOMMENDATIONS

SSA improperly paid thousands of dollars each year in LSDPs. SSA should apply these
payments to reduce/recover existing overpayments on deceased numberholders’
records. If SSA does not take additional steps to address this problem, it will continue
to improperly pay thousands of dollars each year. As such, we recommend that SSA:

1. Consider fully automating the process of withholding an LSDP to reduce any existing
   recoverable overpayment on the record.

2. Remedy weaknesses within MCS, MADCAP and the Title II Processing System that
   allow LSDPs to be paid when recoverable overpayments exist.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology and Sample Appraisal
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
CY       Calendar Year
LSDP     Lump-Sum Death Payment
MADCAP   Manual Adjustment, Credit and Award Processing
MCS      Modernized Claims System
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
                                                                      Appendix B

Scope, Methodology and Sample Appraisal
To accomplish our objectives, we performed the following steps.

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures.

•   Interviewed some field office, program service center and Headquarters personnel
    responsible for Lump-Sum Death Payment (LSDP) issues.

•   Obtained a data extract of 3,934 numberholders who died in Calendar Year 2004,
    had an LSDP annotated on their record, and had an overpayment at the time of
    death. We did an initial review and excluded 470 of the cases based on the
    following criteria:

       9 174 cases in which the overpayments were not correctly posted to the record
         when the LSDP was processed;

       9 252 cases in which the overpayment was for Title XVI cross-recovery and
         was only recoverable from the overpaid Title XVI recipient;

       9 5 cases in which the date of death was incorrect on SSA’s records and
         therefore should not have been included in our audit period;

       9 1 case in which no claim was made for the LSDP;

       9 1 invalid overpayment;

       9 6 bankruptcy cases;

       9 12 cases in which a waiver, explanation or reconsideration was pending on
         the overpayment; and

       9 19 cases dealing with misuse by a representative payee.

    Excluding these cases, our LSDP population totaled 3,464 cases.

•   Reviewed a randomly selected sample of 250 records from our population to
    (1) determine whether SSA paid the LSDP, (2) determine whether SSA withheld the
    LSDP to reduce an existing overpayment, and (3) what system SSA used to process
    the LSDP cases.



                                           B-1
The SSA entity audited was the Deputy Commissioner for Operations. We relied
primarily on the Master Beneficiary Record; Recovery of Overpayments, Accounting
and Reporting System; and Payment History Update System to complete our review.
We determined the data were sufficiently reliable to satisfy our audit objectives. We
limited our review of internal controls to the steps identified above. We conducted our
audit from September 2005 through April 2006 in accordance with generally accepted
government auditing standards.

Table 1: Sample Results, Projections on Incorrectly Paid LSDPs

                  SAMPLE ATTRIBUTE AND VARIABLE APPRAISAL
 Total Population of numberholders who died in Calendar Year 2004,
 had an LSDP annotated on their record and an overpayment existed at
                                                                                   3,464
 the time of death
 Sample Size                                                                         250
                                  Attribute Projections
 Number of incorrectly processed LSDP cases                                          183
 Estimate incorrectly processed LSDP cases in Population                           2,536
 Projection—Lower Limit                                                            2,369
 Projection—Upper Limit                                                            2,688
                                Variable Projections
 Overpayment Amounts in Sample Resulting from SSA incorrectly
                                                                                 $41,180
 Processing LSDP cases
 Estimate of Overpayment Amounts in Population Resulting from
 SSA Incorrectly Processing LSDP Cases                                         $570,597
 Projection—Lower Limit                                                        $529,740
 Projection—Upper Limit                                                        $611,454
 Projections made at the 90-percent confidence level.




                                           B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:      August 9, 2006                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Improperly Paid Lump-Sum Death
           Payments" (A-08-05-25145) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “IMPROPERLY PAID LUMP-SUM DEATH PAYMENTS”
(A-08-05-25145)

Thank you for the opportunity to review and comment on the draft report. Please find below our
response to the specific recommendations.

Recommendation 1

The Social Security Administration (SSA) should consider fully automating the process of
withholding a Lump Sum Death Payment (LSDP) to reduce any existing recoverable
overpayment on the record.

Response

We agree. We have considered fully automating this process. We believe it is technologically
feasible to either fully automate overpayment offset with an LSDP, or we can produce an online
or batch exception to prevent payment release. This would produce exceptions for Payment
Service Center manual processing. See our response to recommendation 2 below for a
description of actions planned to fully automate or generate an exception within our existing
systems.

Recommendation 2

SSA should remedy weaknesses within Modernized Claims System (MCS), Manual Adjustment,
Credit and Award Processing (MADCAP) System and the Title II Processing System that allow
LSDPs to be paid when recoverable overpayments exist.

Response

We agree. We believe the Title II processing system can be configured to recognize and
withhold the LSDP from existing overpayments on record. We are examining upcoming
scheduled releases (date of release has not yet been scheduled) to determine whether such
changes can be accommodated. Of course, if this results in a significant change, an Information
Technology Advisory Board (ITAB) re-approval for the existing project will be needed. For
MADCAP, it appears to be technologically feasible to generate an exception when an LSDP is
being paid and an overpayment exists on the record for any beneficiary. We will submit an
ITAB template that will be considered as systems resources are available. Finally, for MCS, a
change was implemented in April 2006 to produce a payment exception when an overpayment is
reflected in the Beneficiary Overpayment/Underpayment Data (BOUD) field for the
numberholder. In November 2006, a payment exception will be produced when the field inputs
an LSDP and an overpayment is posted in the BOUD field of the Master Beneficiary Record or
the Special Payment Amount field for any beneficiary of record.




                                              C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kim Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Susan G. Evans, Auditor

   Kenley Coward, Program Analyst

   Neha Smith, Senior Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-05-25145.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
